TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Internal Controls for Surveying Tax Returns
                  With Abusive Tax Avoidance Transactions
                          Need to Be Strengthened



                                      September 28, 2010

                              Reference Number: 2010-30-118




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 HIGHLIGHTS


INTERNAL CONTROLS FOR SURVEYING                         because justification was not included in the
TAX RETURNS WITH ABUSIVE TAX                            case files or did not support the decisions to
AVOIDANCE TRANSACTIONS NEED TO BE                       survey the tax returns. TIGTA projected the IRS
STRENGTHENED                                            could have examined 840 additional tax returns
                                                        and proposed additional tax assessments
                                                        totaling $1.7 million over a 5-year period.
Highlights                                              For 278 (89 percent) of the 311 surveyed tax
                                                        returns, TIGTA found IRS employees did not
Final Report issued on September 28, 2010               follow procedures when surveying tax returns
                                                        with ATAT issues. TIGTA projected
Highlights of Reference Number: 2010-30-118 to          196 taxpayers’ rights could have been
the Internal Revenue Service Commissioners for          jeopardized under Internal Revenue Code
the Large and Mid-Size Business Division and the        Section 7605(b) because the IRS surveyed tax
Small Business/Self-Employed Division.                  returns after contacting taxpayers. Furthermore,
                                                        surveyed tax returns with ATAT issues are not
IMPACT ON TAXPAYERS                                     subject to the quality review process.
Combating Abusive Tax Avoidance Transactions            WHAT TIGTA RECOMMENDED
(ATAT) is one of the Internal Revenue Service’s
(IRS) highest priorities. There are tax returns with    TIGTA recommended that the Commissioner,
ATAT issues that do not warrant examination and         Large and Mid-Size Business Division, and the
are surveyed prior to taxpayer contact. Surveying       Commissioner, Small Business/Self-Employed
tax returns with an ATAT issue without proper           Division, develop internal controls and provide
justification or approval could be counterproductive    employee training to ensure that justification is in
to the IRS’ goal to combat abusive schemes. In          the case files to survey tax returns with an ATAT
addition, this approach can erode the public’s          issue. Also, the tax return should be reviewed
confidence in the IRS’ ability to enforce tax laws in   by an independent function for concurrence with
a fair, equitable, and consistent manner.               the group manager’s decision. In addition, the
                                                        Small Business/Self-Employed Division should
WHY TIGTA DID THE AUDIT                                 ensure tax returns with ATAT issues (surveyed
This audit was initiated because identifying tax        as excess inventory) can be readily identified
avoidance schemes is one of the IRS’ major              and examinations are completed once taxpayers
initiatives. Our objective was to evaluate the          are contacted. Furthermore, procedures should
effectiveness of controls and procedures used by        be developed to ensure surveyed tax returns are
the Large and Mid-Size Business and the                 included as part of the quality review process.
Small Business/Self-Employed Divisions to ensure        IRS management agreed with two and
tax returns with ATAT issues are properly examined      disagreed with two recommendations. TIGTA
for abusive tax avoidance schemes.                      continues to believe the breakdown in controls
WHAT TIGTA FOUND                                        for the approval process indicated that tax
                                                        returns surveyed without documentation may
IRS employees made decisions to survey tax              have yielded examination results.
returns without proper approval. From a statistical
sample of 311 surveyed tax returns, TIGTA               The IRS also disagreed with our outcome
determined that 246 required the Planning and           measures. TIGTA computed the outcomes
Special Programs function to concur with the group      conservatively using historical data from the
manager’s decision to survey the tax return.            Examination program. TIGTA maintains that the
However, group managers did not follow guidelines       potential $1.7 million of increased revenue and
and surveyed 238 (97 percent) tax returns without       840 impacted taxpayers is reasonable
approval from the Planning and Special Programs         considering the assumptions used to calculate
function. Additionally, in 88 instances, TIGTA could    the estimate. TIGTA also maintains
not determine why the tax returns were surveyed         196 taxpayers’ rights may have been
                                                        jeopardized.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 28, 2010


 MEMORANDUM FOR COMMISSIONER, LARGE AND MID-SIZE BUSINESS DIVISION
                COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Internal Controls for Surveying Tax Returns
                             With Abusive Tax Avoidance Transactions Need to Be Strengthened
                             (Audit # 200930031)

 This report presents the results of our review to evaluate the effectiveness of controls and
 procedures used by the Large and Mid-Size Business Division and Small Business/
 Self-Employed Division to ensure tax returns with Abusive Tax Avoidance Transactions are
 properly examined for abusive tax shelter and tax avoidance schemes. This audit was included
 in our Fiscal Year 2010 Annual Audit Plan and addresses the major management challenge of
 Tax Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
 Operations), at (202) 622-8510.
                            Internal Controls for Surveying Tax Returns With
                      Abusive Tax Avoidance Transactions Need to Be Strengthened




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Decisions to Survey Tax Returns With Abusive Tax Avoidance
          Transactions Were Made Without Proper Approval ................................... Page 3
                    Recommendation 1:.......................................................... Page 6

                    Recommendations 2 and 3: ................................................ Page 7

          Better Oversight of Surveyed Tax Returns With Abusive Tax
          Avoidance Transactions Would Reduce Procedural Errors.......................... Page 8
                    Recommendation 4:.......................................................... Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 10
          Appendix II – Major Contributors to This Report ........................................ Page 12
          Appendix III – Report Distribution List ....................................................... Page 13
          Appendix IV – Outcome Measures............................................................... Page 14
          Appendix V – Income Tax Survey After Assignment (Form 1900) ............ Page 18
          Appendix VI – Management’s Response to the Draft Report ...................... Page 19
              Internal Controls for Surveying Tax Returns With
        Abusive Tax Avoidance Transactions Need to Be Strengthened




                       Abbreviations

ATAT             Abusive Tax Avoidance Transaction
FY               Fiscal Year
IRM              Internal Revenue Manual
IRS              Internal Revenue Service
LMSB             Large and Mid-Size Business
PSP              Planning and Special Programs
SB/SE            Small Business/Self-Employed
                           Internal Controls for Surveying Tax Returns With
                     Abusive Tax Avoidance Transactions Need to Be Strengthened




                                              Background

The Internal Revenue Service (IRS) defines an Abusive Tax Avoidance Transaction (ATAT) as
“a specific tax transaction/promotion that reduces a tax liability by taking a tax position that is
not supported by tax law or manipulates the law in a way that is not consistent with the intent of
the law (tax evasion).” An ATAT scheme may be marketed to participants by a promoter, such
as an accounting or law firm, and is often referred to as an abusive tax shelter. Combating
ATATs is one of the IRS’ most important commitments and is considered priority work. For
example, the IRS includes the following goal in its Strategic Plan 2009–2013:
           The proliferation of tax avoidance schemes is a special challenge. New schemes arise
           every tax cycle and can spread faster as technology makes it easier to propagate them.
           We will address tax avoidance schemes through prompt and decisive action, combined
           with educational activities for taxpayers and practitioners. We will leverage technology,
           communications, and collaboration among IRS offices and with other government
           agencies to quickly identify and confront emerging schemes.1
The primary goal of the ATAT Program is to stop the marketing and promotion of abusive
transactions or strategies. To accomplish this practice, the ATAT program completes
investigations of individuals or businesses that promote schemes and complete examinations of
tax returns of promoter clients who participate in the scheme. During Fiscal Year (FY) 2009, the
IRS completed the examination of 25,105 tax returns that had an ATAT issue and made
additional tax assessments totaling over $1 billion.
Funding for the ATAT Program is earmarked in the annual plans of the Large and Mid-Size
Business (LMSB) Division and the Small Business/Self-Employed (SB/SE) Division. Both
operating divisions have demonstrated their commitment by establishing offices dedicated to the
ATAT Program (the Office of Tax Shelter Analysis in the LMSB
Division and the Office of Abusive Transactions and Technical Issues
in the SB/SE Division.)
Tax returns with an ATAT issue may be filed by promoters and
participants in abusive schemes or abusive tax shelters, as well as
paid preparers who were previously investigated by the IRS but
continue to submit egregious tax returns. As priority workload, it is
generally expected that tax returns selected for examination will be
worked to completion and could result in assessing additional tax and
bringing the taxpayer into compliance. However, the decision by


1
    IRS Strategic Plan 2009–2013, (Publication 3744, dated April 2009)
                                                                                              Page 1
                         Internal Controls for Surveying Tax Returns With
                   Abusive Tax Avoidance Transactions Need to Be Strengthened



group managers to survey2 examinations with an ATAT issue without proper justification or
approval could be counterproductive to the IRS’ efforts in achieving its strategic goal and the
operating divisions’ commitments. Also, this decision does not ensure equitable treatment of
taxpayers who participate in similar transactions, may have a corrosive effect on tax
administration, and could erode the public’s confidence in the IRS’ ability to enforce tax laws in
a fair, equitable, and consistent manner.
The IRS does provide guidelines to its examiners and recognizes that a limited number of tax
returns with ATAT issues, in the judgment of the group manager and the examiner, may not
warrant an examination. When a decision is made to survey a tax return, the case is closed in
one of the following manners:
    •   Survey Before Assignment – a tax return selected for examination is considered as
        surveyed before assignment if it is disposed of without contact with taxpayers, or their
        representatives, and before assignment to an examiner.
    •   Survey After Assignment – a tax return is considered as surveyed after assignment if the
        examiner, after consideration of the return and without contact with taxpayers or their
        representatives, believes that an examination of the return would result in no material
        change in tax liability.
    •   Excess Inventory – a tax return has audit potential but time prohibits initiating the
        examination.
This review was performed at the IRS’ Office of Abusive Transactions and Technical Issues,
SB/SE Division, in Lanham, Maryland, and the Office of Tax Shelter Analysis, LMSB Division,
in Washington, D.C., during the period March 2009 through June 2010. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




2
 A survey is a determination by the examiner’s group manager that examination of the tax return is not warranted
and the taxpayer has not yet been contacted.
                                                                                                          Page 2
                         Internal Controls for Surveying Tax Returns With
                   Abusive Tax Avoidance Transactions Need to Be Strengthened




                                      Results of Review

Decisions to Survey Tax Returns With Abusive Tax Avoidance
Transactions Were Made Without Proper Approval
The decision to survey the SB/SE Division’s examination of a tax return with an ATAT issue is
subject to two levels of approval—first by the Examination function group manager and then by
the Planning and Special Programs (PSP) function.3 From a statistical sample4 of 311 tax returns
with ATAT issues surveyed during FYs 2006 through 2008, we determined that 246 tax returns
required the PSP function to concur with the group managers’ decisions to survey the tax returns.
However, group managers did not always follow these IRS guidelines and surveyed
238 (97 percent) tax returns without the second-level approval from the PSP function. Figure 1
shows the required SB/SE Division approval process to ensure the decision to survey a tax return
with an ATAT issue is justified.
                  Figure 1: Surveying a Tax Return With an ATAT Issue 5




        Source: Our analysis of the Internal Revenue Manual (IRM).



3
  The PSP function is responsible for planning, ordering, and delivering tax returns for examination to the field
examination groups.
4
  We selected our sample from a population of 4,091 tax returns with the most commonly used project codes, types
of returns, and three specific disposal codes. The IRS uses project codes to group tax returns selected for
examination with similar issues. Disposal codes are used to document the results of an examination or how the case
was closed.
5
  Please see Appendix V for an exhibit of Form 1900.
                                                                                                          Page 3
                      Internal Controls for Surveying Tax Returns With
                Abusive Tax Avoidance Transactions Need to Be Strengthened



Group managers use the Income Tax Survey After Assignment (Form 1900) to document the
justification for surveying a tax return. Form 1900 is required for tax returns surveyed before or
after assignment. Examiners in the PSP function are required to review the Form 1900 and
annotate if they agree with the group manager’s decision to survey the tax return. If the PSP
function disagrees with the recommendation to survey, the tax return is either returned to the
group manager or reassigned to another group to conduct the examination. The Form 1900 was
not required for the remaining 65 tax returns because current guidelines do not require the PSP
function to document the decision to survey tax returns as excess inventory.
Due to the structure of the IRS, all surveyed tax returns cannot be physically reviewed by the
PSP function because the offices may not be located in the same geographical area as the
Examination group. For the SB/SE offices, the IRS requires group managers or examiners to
document, in the case file, that the decision to survey the tax return was discussed with and
approved by the PSP function. Although this practice is a deviation from guidelines, we agree
that it is more efficient and provides documentation and concurrence to survey the tax return.
The LMSB Division does not require the PSP function to review and concur with the group
manager’s decision to survey tax returns with an ATAT issue. However, when there is
inconsistency among the IRS’ operating divisions or when employees bypass these controls, the
IRS is at risk of missing opportunities to assess additional taxes and meet its strategic goal of
combating abusive tax transactions.

Justification for surveying tax returns is not always provided in the case file
For 88 (36 percent) of the 246 tax returns, we could not determine why the tax returns were
surveyed because the Forms 1900 were not included in the case files or the justifications
provided did not warrant surveying the tax returns. As part of their managerial review, group
managers are required to ensure that justifications to survey tax returns are annotated on the
Forms 1900 and forwarded or discussed with the PSP function for concurrence.
Without the Form 1900 or adequate justification, the PSP function does not have the necessary
information to evaluate and approve the group manager’s decision to survey a tax return. If the
PSP function disagrees with the decision to survey, the tax return is returned to the group
manager for further clarification or to be worked. When a decision to survey a tax return is
approved, another tax return will be examined in its place. Based on these results, we project the
IRS could have increased its proposed assessments by $1.7 million over a 5-year period if they
had continued the examination of 840 tax returns the employees decided to survey.

Tax returns with imminent statutes of limitations are not reviewed by the Office of
Chief Counsel
The decision to pursue examination activity on a tax return with an ATAT issue that has an
imminent statute of limitations resides with the Office of Chief Counsel. For 11 (4 percent) of
the 311 tax returns in our sample, the Office of Chief Counsel was not contacted to determine if

                                                                                            Page 4
                        Internal Controls for Surveying Tax Returns With
                  Abusive Tax Avoidance Transactions Need to Be Strengthened



actions should be taken to pursue a tax assessment or if the statute of limitations should be
allowed to expire. The decision to survey these tax returns was made by the group manager.
On February 5, 2004, the IRS issued guidance advising managers and examiners of the following
policy regarding the statutes of limitations on tax returns with an ATAT issue:
        Identification of investors can not always be done in a timely manner due to late receipt
        of investor lists from promoters. The Internal Revenue Manual provides that normally
        we would not pursue "old" year returns at a late date but these cases are a serious
        detriment to compliance. Therefore, the Service will pursue the examination of these
        returns even when there is an impending statute of limitations.6
        When a return is identified through classification or assignment that has an abusive
        transaction, that issue must be considered. In no event should a short statute be the
        reason for survey or other non-examination activity on that return.
This guidance ensures that the IRS is prioritizing ATAT issues over imminent statutes of
limitations. It is designed to facilitate prompt, consistent, and decisive actions to confront
existing or emerging schemes. When group managers bypass the Office of Chief Counsel, the
IRS is at risk of inequitably treating taxpayers involved in these schemes. For example, an
examiner who is advised by the Office of Chief Counsel to pursue a tax assessment will continue
the examination whether or not the taxpayer agrees to extend the statute of limitations.
However, if the Office of Chief Counsel is not contacted, a taxpayer may benefit by not being
assessed additional tax because the tax return was surveyed.

Tax returns with an ATAT issue are being surveyed subsequent to taxpayer
contact
For 9 (3 percent) of the 311 tax returns, examiners made the decision to survey the tax returns
after calling or issuing contact letters to advise taxpayers or their representatives that their tax
returns had been selected for examination. A surveyed tax return is not considered an
examination because the taxpayer has not been contacted or the taxpayer’s books and records
have not been inspected. However, once taxpayers have been contacted, the tax return cannot be
surveyed and it is considered an open examination case.
Guidelines state that a tax return cannot be surveyed if any of the following conditions exist:
    •   The taxpayer (or representative) has been contacted.
    •   Taxpayer records have been inspected.



6
 Examination of Short Statute Abusive Transaction Cases; Commissioners, LMSB Division, SB/SE Division, and
Tax Exempt/Government Entities Division; February 5, 2004.
                                                                                                    Page 5
                         Internal Controls for Surveying Tax Returns With
                   Abusive Tax Avoidance Transactions Need to Be Strengthened



    •   The examiner determined an examination will most likely result in a significant change in
        the taxpayer’s liability.
When taxpayers are initially contacted for an examination, they are advised of their rights either
verbally from the tax examiner or provided with Your Rights as a Taxpayer (Publication 1). In
addition to advising taxpayers of their most common rights, Publication 1 provides guidance on
the examination, collection, and refund processes.
In the Examination section of Publication 1, taxpayers are advised of the repeat examination7
process. It states:
        If we examined your return for the same items in either of the two previous years and
        proposed no change to your tax liability, please contact us as soon as possible so we can
        see if we should discontinue the examination.
The policies and procedures that the IRS established were meant to ensure that taxpayers’ rights
are protected. These rights are guaranteed by laws which are contained within Internal Revenue
Code Section 7605(a), which protects taxpayers from unnecessary audits, and Section 7605 (b),
which safeguards against repeat examinations. The code section stipulates:
        No taxpayer shall be subjected to unnecessary examination or investigation, and only one
        inspection of a taxpayer’s books of account shall be made for each taxable year…
For all nine cases, the manager did not direct the employee to continue the examination, even if
the end result would not have changed the taxpayer’s tax liability. Therefore, taxpayers’ rights
have been placed in jeopardy because guidelines allow for a surveyed tax return to be reopened
for examination for non-ATAT related issues at a later date, which means these taxpayers could
again be contacted about an examination. The projected number of taxpayers whose rights were
jeopardized as a result of the decision to survey the tax returns after the examiner initiated
contact is 196 taxpayers over a 5-year period.

Recommendations
Recommendation 1: The Commissioner, LMSB Division, and the Commissioner, SB/SE
Division, should develop consistent internal controls and provide training to ensure employees
adhere to guidelines that require group managers to: 1) include the Form 1900, or comparable
process, to ensure adequate justification is included in the case files for decisions to survey tax
returns with an ATAT issue and 2) ensure surveyed tax returns with an ATAT issue are
reviewed by an independent function for concurrence with the group manager’s decision.


7
  Repeat examination (repetitive audit) allows for limiting the scope of the examination when the same issues were
examined and no-changed in either of the 2 preceding years. If the same issues under examination were no-changed
in either of the 2 preceding years, those issues should be eliminated from the scope of the examination unless
information in the case file indicates the issue is worthy of examination.
                                                                                                          Page 6
                      Internal Controls for Surveying Tax Returns With
                Abusive Tax Avoidance Transactions Need to Be Strengthened



       Management’s Response: IRS management agreed with this recommendation. The
       IRS will consider procedural changes to ensure that internal controls and documentation
       are in place that reflect consistency in decisions to survey ATAT cases, while allowing
       the operating divisions to maintain flexibility in operating procedures and systems. The
       IRS will also issue memoranda emphasizing the importance of adhering to procedures for
       review and documentation of determinations to survey cases.
       However, IRS management does not agree with the related outcome measure. The
       Increased Revenue outcome measure is based on potential revenue had the surveyed
       return been audited. A properly surveyed abusive ATAT case would not generally yield
       the same tax revenues, if examined, as a selected ATAT case. The IRS’ review of the
       surveyed cases indicated that the surveys were appropriate. The decision to survey a case
       does not change the overall number of cases examined; i.e., when one tax return is
       surveyed, a different tax return with greater audit potential is placed in the audit stream.
       Therefore, the IRS disagrees with the assumption that the IRS improperly surveyed 840
       cases and, instead, examined 840 less productive cases.
       Office of Audit Comment: Our evaluation of surveyed tax returns was based on the
       documentation provided in the administrative files. Our results showed for
       88 (36 percent) of the 246 tax returns, we could not determine why the tax returns were
       surveyed because the Forms 1900 were not included in the case files or the justifications
       provided did not warrant surveying the tax returns. Without this information, it is not
       clear how the IRS can justify the decision to survey the tax return was appropriate. We
       continue to believe the breakdown in controls for the approval process indicated that tax
       returns surveyed without documentation may have yielded examination results. We
       computed this outcome conservatively, applying historical data from the general
       Examination program. Based on our analyses, the financial outcome as shown in
       Appendix IV is reasonable and appropriate.
Recommendation 2: The Director, Exam Planning and Delivery, SB/SE Division, should
develop controls to ensure tax returns with an ATAT issue that are surveyed as excess inventory
can be readily identified as being surveyed by the PSP function.
       Management’s Response: IRS management agreed with this recommendation. The
       Director, Exam Planning and Delivery, SB/SE Division, will issue a memorandum
       emphasizing the importance of adhering to procedures for review and documentation of
       determinations to survey cases, including procedures that ensure that cases surveyed as
       excess inventory can be readily identified.
Recommendation 3: The Director, Examination, SB/SE Division, should strengthen existing
controls to protect the rights of taxpayers by ensuring examinations of ATAT cases are
completed once taxpayers, or their representatives, have been contacted by IRS employees.


                                                                                            Page 7
                           Internal Controls for Surveying Tax Returns With
                     Abusive Tax Avoidance Transactions Need to Be Strengthened



           Management’s Response: IRS management disagreed with this recommendation
           and the outcome measure regarding Taxpayer Rights and Entitlements. In those
           circumstances permitted by IRM Section 4.10.2.5.1(3), a tax return can be surveyed after
           taxpayer or representative contact where the books and records have not been requested
           or inspected or where other extraordinary circumstances exist.
           Office of Audit Comment: The tax returns in our sample were surveyed during
           FYs 2006 through 2008, prior to the revision of IRM section 4.10.2.5.1(3). The IRM
           guidelines in effect at the time of our sample stated tax returns could not be surveyed
           once the taxpayer or the taxpayer’s representative was contacted. Furthermore, there was
           no reference to request the taxpayer’s books or records. During our review, the IRS
           revised the IRM. This revision became effective April 2, 2010, and broadens the
           definition of taxpayer contact to allow the IRS more flexibility in surveying returns. The
           clarification to the IRM was necessary to allow the surveying of tax returns after taxpayer
           contact but before requesting books and records. We continue to believe the
           recommendation supports the action taken by the IRS during our review and does not
           affect the Taxpayer Rights and Entitlement outcome measure in Appendix IV.

Better Oversight of Surveyed Tax Returns With Abusive Tax
Avoidance Transactions Would Reduce Procedural Errors
                                            From a statistical sample of 311 FYs 2006 through 2008
    The IRM instructs employees to          tax returns with an ATAT issue, we determined that
    complete the following steps when       employees did not properly follow procedures when
    a decision is made to survey ATAT       deciding to survey 278 (89 percent) of the tax returns
    cases:
                                            selected for examination. From our review of 311 tax
    1. The tax return must be stamped       returns, the most common processing errors8 were:
       with the appropriate survey stamp
       for “Survey Before Assignment,”      •   82 (26 percent) tax returns were not signed by the
       “Survey After Assignment,” or            group manager.
       “Survey–Excess Inventory.”
                                            •   34 (11 percent) tax returns did not have a survey
    2. The examiner and the group               stamp.
       manager must sign the stamped
       tax return.                          •   25 (8 percent) tax returns were closed with the
    3. The survey stamp and disposal            incorrect disposal code. For example, the tax return
       code for the tax return must be in       was stamped “Survey Before Assignment” but
       agreement.                               closed with a disposal code for “Survey After
                                                Assignment.”



8
    Some cases had more than one error.
                                                                                               Page 8
                      Internal Controls for Surveying Tax Returns With
                Abusive Tax Avoidance Transactions Need to Be Strengthened



Our test results showed that the Examination and PSP functions do not have a quality review
process to review tax returns surveyed by group managers. Both functions only review closed
cases and use these quality and product review results to identify error trends, develop program
improvements, and identify training opportunities. However, since surveyed tax returns with an
ATAT issue are not part of a product review, procedural errors go unchecked, and the IRS
cannot ensure that priority tax returns with ATAT issues are correctly processed.

Recommendation
Recommendation 4: The Director, Planning, Quality, Analysis, and Support,
LMSB Division and the Director, Exam Operations Support, SB/SE Division, should develop
procedures to include surveyed tax returns as part of the quality review process.
       Management’s Response: IRS management disagreed with this recommendation.
       The quality review process should not include surveyed tax returns. When a case is
       surveyed, the only issue to review is whether the survey was proper. The current practice
       often involves ATAT specialists in the survey decision and the current procedures, per
       IRM 4.1.3.5.1, provide that PSP will review and concur in instances where a case has
       been surveyed. Any additional review would slow the process of quality review and be
       ministerial in nature. The IRS believes it would add very limited value to the compliance
       process and review resources are best used otherwise.
       Office of Audit Comment: We maintain that the quality review process is necessary.
       Since the PSP or ATAT specialists do not always receive the case files when determining
       to survey a tax return, there are no controls in place to ensure the tax return was properly
       reviewed prior to being surveyed. A quality review process would confirm the tax return
       was properly surveyed by verifying documentation (from the PSP or ATAT specialist) is
       present, the tax return was stamped, managerial concurrence is documented, and the
       appropriate closing code is used. We identified many of these types of errors when
       reviewing surveyed tax returns. The IRS has these controls in place because they are
       equally as important as the current process to only review cases to determine whether the
       survey was proper. We continue to believe that employee errors and oversights can best
       be identified and corrected through a quality review program.




                                                                                            Page 9
                         Internal Controls for Surveying Tax Returns With
                   Abusive Tax Avoidance Transactions Need to Be Strengthened



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

Our objective was to evaluate the effectiveness of controls and procedures used by the LMSB
and SB/SE Divisions to ensure ATAT tax returns are properly examined for abusive tax shelter
and abusive tax avoidance schemes. To accomplish our objective, we:
I.      Determined what controls and procedures the IRS has in place to ensure ATAT tax
        returns are examined.
        A. Researched the IRM to identify Examination function procedures to survey tax
           returns with an ATAT issue.
        B. Held discussions with management from the LMSB and SB/SE Divisions to
           determine the controls and procedures used to ensure tax returns with ATAT issues
           are examined.
II.     Selected a statistically valid sample of 311 FYs 2006 through 2008 nonexamined closed
        tax returns. These tax returns were selected from a population of 4,091 tax returns that
        had 2 specific project codes (indicating they contained ATAT issues). The sample had a
        confidence level of 95 percent, a reliability factor of ± 5.58 percent, and an expected error
        rate of 50 percent. We reviewed the original tax returns and examination files to
        determine if employees adhered to existing procedures when decisions were made to
        survey the tax returns. To validate our sample cases, we:
        A. Verified the information from the Audit Information Management System1 to the
           Integrated Data Retrieval System.2
        B. Compared taxpayer’s information documented in the original case file to ensure it
           matched data on the Integrated Data Retrieval System.
III.    For the tax returns selected in Step II, we determined:
        A. Why ATAT tax returns were surveyed.
        B. If employees followed procedures to properly survey the tax returns.
        C. If the tax returns should have been examined and the potential examination results.

1
  The Audit Information Management System is a computer system used by the Examination functions in the LMSB
Division, SB/SE Division, and Wage and Investment Division to control tax returns, input assessments/adjustments,
and provide management reports.
2
  The Integrated Data Retrieval System is the IRS computer system capable of retrieving or updating stored
information; it works in conjunction with a taxpayer’s account records.
                                                                                                        Page 10
                     Internal Controls for Surveying Tax Returns With
               Abusive Tax Avoidance Transactions Need to Be Strengthened



IV.    Held discussions with management from the LMSB and SB/SE Divisions to determine
       causes for any identified weaknesses or breakdown of internal controls.
Internal Controls Methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the LMSB and SB/SE Divisions’
procedures and practices for ensuring employees followed procedures when the decision is made
to survey tax returns with ATAT issues. We evaluated these controls by interviewing
management and reviewing a statistical sample of tax returns.




                                                                                     Page 11
                     Internal Controls for Surveying Tax Returns With
               Abusive Tax Avoidance Transactions Need to Be Strengthened



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank W. Jones, Director
Marybeth Schumann, Director
L. Jeff Anderson, Audit Manager
Bernard F. Kelly, Audit Manager
Earl Charles Burney, Acting Audit Manager
Gail Schuljan, Lead Auditor
Carol Gerkens, Senior Auditor
Gwendolyn Green, Senior Auditor
Nancy Van Houten, Senior Audit Evaluator




                                                                                      Page 12
                     Internal Controls for Surveying Tax Returns With
               Abusive Tax Avoidance Transactions Need to Be Strengthened



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attention: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Planning, Quality, Analysis, and Support, Large and Mid-Size Business Division
SE:LM:Q
Director, Pre-Filing and Technical Guidance, Large and Mid-Size Business Division
SE:LM:PFTG
Director, Research and Workload Identification, Large and Mid-Size Business Division
SE:LM:RWI
Director, Abusive Transactions, Small Business/Self-Employed Division SE:S:E:AT
Director, Exam Operations Support, Small Business/Self-Employed Division SE:S:E:OS
Director, Exam Planning and Delivery, Small Business/Self-Employed Division SE:S:E:EPD
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Deputy Commissioner for Services and Enforcement SE
       Commissioner, Large and Mid-Size Business Division SE:LM
       Commissioner, Small Business/Self-Employed Division SE:S




                                                                                   Page 13
                         Internal Controls for Surveying Tax Returns With
                   Abusive Tax Avoidance Transactions Need to Be Strengthened



                                                                                              Appendix IV

                                    Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Increased Revenue – Potential; $1.7 million; 840 impacted taxpayers (see page 3). The
    outcome includes $1,031,184 and 504 impacted taxpayers for FYs 2006 through 2008. It
    also includes projected increased revenue of $687,456 and 336 impacted taxpayers from tax
    returns with an ATAT issue that could have been audited instead of being surveyed for
    FYs 2009 through 2010.

Methodology Used to Measure the Reported Benefit:
We determined from a statistical sample of 311 examinations that employees did not follow
procedures when deciding to survey tax returns with ATAT issues selected for examination. Our
results showed that for FYs 2006 through 2008, the IRS could have completed additional
examinations of tax returns with ATAT issues had they not been surveyed by group managers.
Income Tax Survey After Assignment (Form 1900)1 was required for 246 of our sampled tax
returns. For 88 (36 percent) tax returns, we could not determine why the tax returns were
surveyed because the Forms 1900 did not provide adequate justification or were not attached to
the tax returns.
When a tax return is surveyed, another tax return will be examined in its place. However, when
tax returns are surveyed without justification or approval, the IRS cannot ensure that the next tax
return examined would not have the same results as the tax return surveyed. To quantify this
outcome, we calculated the potential increased revenue the IRS could have realized from
completing the examinations instead of surveying the tax returns in our sample.2 We also
calculated the potential increased revenue the IRS could have realized from the tax returns that
were examined in replacement of the tax returns surveyed. The difference between these two


1
  Group managers and the PSP function use Form 1900 to approve justification for surveying a tax return with
ATAT issues.
2
  We selected our sample from a population of 4,091 tax returns with the most commonly used project codes, types
of returns, and three specific disposal codes. The IRS uses project codes to group tax returns selected for
examination with similar issues. Disposal codes are used to document the results of an examination or how the case
was closed.
                                                                                                         Page 14
                         Internal Controls for Surveying Tax Returns With
                   Abusive Tax Avoidance Transactions Need to Be Strengthened



figures represented the net increased revenue the IRS could have realized. We used the
following FYs 2006 through 2008 ATAT data to determine the number of tax returns that would
have resulted in a tax assessment if the tax returns had not been surveyed:
    •   Percentage of ATAT tax returns surveyed = 26 percent.
    •   No-change rate3 = 27 percent.
    •   No-change with adjustments rate4 = 3 percent.
    •   No additional tax/refund5 rate = 11 percent.
    •   Average tax assessment for ATAT cases = $61,676.
For the FYs 2006 through 2008, we determined that 88 (28.3 percent) of the 311 sampled tax
returns should have been examined. We projected the error rate from our sample across the total
population of 4,091 surveyed ATAT tax returns to estimate that 1,158 tax returns did not justify
being surveyed. The following factors were used in calculating the number of estimated tax
returns that should have been examined:6
The number of cases that had no justification for being surveyed was calculated as follows:
    •   88 / 311 = 28.3 percent of tax returns in sample.
    •   Total population of 4,091 x 28.3 percent = 1,158 tax returns.
The number of cases that should have been surveyed was calculated as follows:
    •   1,158 x 26 percent (percentage of ATAT tax returns correctly surveyed) = 301.
    •   1,158 - 301 = 857 tax returns.
The number of remaining tax returns that would not have resulted in a tax assessment was
calculated as follows:
    •   857 tax returns x percentage of cases that would be no-changed, no-changed with an
        adjustment, and resulted in no additional tax/refund (41 percent (27% + 3% + 11%)) =
        351 cases (rounded).




3
  No-change applies to examinations for which there were no adjustments and no changes to tax liability.
4
  No-change with adjustments applies to examined tax returns for which there is an adjustment to the tax base data
such as income or deduction items, but no change to tax liability.
5
  These are cases that do not reflect additional tax on the Audit Information Management System Table 37 (which is
used by management to monitor examination results) but are not no-change or no-change with adjustments closures.
For example, examinations resulting in a refund would fall into this category.
6
  The calculated financial outcomes and number of impacted taxpayers will not equal due to rounding.
                                                                                                         Page 15
                      Internal Controls for Surveying Tax Returns With
                Abusive Tax Avoidance Transactions Need to Be Strengthened



The number of remaining tax returns that would have been examined and resulted in a tax
assessment was calculated as follows:
   •   857 – 351 = 506 tax returns.
The number of annual ATAT tax returns with a tax assessment was calculated as follows:
   •   506 / 3 (FYs 2006 through 2008) = 168 tax returns per year (This should round to 169;
       however, the actual number of tax returns is 168).
   •   The projected annual tax assessments that could have been made was calculated as
       follows:
   •   $61,676 x 168 tax returns = $10,361,568 per year.
       o For FYs 2006 through 2008, the projected assessments could have totaled
         $31,084,704 ($10,361,568 x 3 years), impacting 504 taxpayers (168 x 3 years).
       o For FYs 2009 through 2010, the projected tax assessment could have totaled
         $20,723,136 ($10,361,568 x 2 years), impacting 336 taxpayers (168 x 2 years).
The projected tax assessments for ATAT tax returns that should not have been surveyed:
   •   $31,084,704 + $20,723,136 = $51,807,840 for the 5-year period.
   •   504 + 336 = 840 impacted taxpayers.
To calculate the potential increased revenue the IRS could have realized from the tax returns that
were examined in replacement of the tax returns surveyed, we used the following FYs 2006
through 2008 historical ATAT data provided by IRS.
The number of actual ATAT tax returns with a tax assessment for FYs 2006 through 2008
was:
   •   76,135 examinations resulted in assessments totaling $4,539,907,146.
   •   $4,539,907,146 / 76,135 examinations = $59,630 average assessment per return.
   •   $59,630 x 840 tax returns = $50,089,200 over a 5-year period.
To compute the financial outcome, we:
   •   Calculated the difference between the average projected assessments for surveyed
       cases and the average annual assessments for the examined cases with ATAT issues.
   •   $51,807,840 - $50,089,200 = $1,718,640




                                                                                          Page 16
                            Internal Controls for Surveying Tax Returns With
                      Abusive Tax Avoidance Transactions Need to Be Strengthened



Type and Value of Outcome Measure:
•      Taxpayer Rights and Entitlements – Potential; 196 taxpayers (see page 3). The outcome
       includes 118 actual taxpayers whose rights were in jeopardy for FYs 2006 through 2008.
       The outcome also includes the 78 (39 x 2) projected taxpayers whose rights may be
       jeopardized for FYs 2009 through 2010.

Methodology Used to Measure the Reported Benefit:
For FYs 2006 through 2008, test results showed the IRS surveyed 9 (2.9 percent) of 311 ATAT
examination tax returns after the taxpayer was contacted. For these taxpayers, their rights are in
jeopardy because their tax returns with an ATAT issue were improperly surveyed after they were
contacted by the IRS. As a result of their returns not being examined, these taxpayers could have
their returns selected for examination again, thus being contacted again by the IRS regarding an
examination of the same tax returns. We projected the error rate from our sample across the total
population of ATAT tax returns to compute 196 taxpayers whose rights could have been in
jeopardy had their returns been surveyed after they were contacted by the IRS, leaving them
open to a second contact for the same tax returns. The following factors were used in calculating
the number of taxpayers estimated:7
       •   Multiplied the 4,091 ATAT tax returns in our population by 2.9 percent = 118 taxpayers
           (39 annually (118 / 3) for FYs 2006 through 2008).
       •   Projected for an additional 2 years of taxpayers whose rights could be jeopardized
           (39 x 2 = 78).
       •   Total taxpayers whose rights could have been jeopardized is 118 + 78 = 196.




7
    The calculation for the number of impacted taxpayers will not equal due to rounding.
                                                                                                Page 17
                  Internal Controls for Surveying Tax Returns With
            Abusive Tax Avoidance Transactions Need to Be Strengthened



                                                           Appendix V

Income Tax Survey After Assignment (Form 1900)




  Source: IRS Electronic Publishing Catalog.


                                                                 Page 18
          Internal Controls for Surveying Tax Returns With
    Abusive Tax Avoidance Transactions Need to Be Strengthened



                                                   Appendix VI

Management’s Response to the Draft Report




                                                         Page 19
      Internal Controls for Surveying Tax Returns With
Abusive Tax Avoidance Transactions Need to Be Strengthened




                                                     Page 20
      Internal Controls for Surveying Tax Returns With
Abusive Tax Avoidance Transactions Need to Be Strengthened




                                                     Page 21
      Internal Controls for Surveying Tax Returns With
Abusive Tax Avoidance Transactions Need to Be Strengthened




                                                     Page 22
